                  Table of Contents



Executive Summary…………………………………………………..                  1

Performance Results……………………………………….…………                 2

Performance Discussion and Analysis ……………………….………       3

      Goal 1 – Impact ……………………………………………….. 3

      Goal 2 – Value ………………………………………………… 5

      Goal 3 – People ………………………………………………... 8

Historical Comparison………………………………………………… 10




October 2008    SSA OIG FY 2008 Performance Report   Page 2
                MISSION STATEMENT



By conducting independent and objective audits, evaluations and
 investigations, we inspire public confidence in the integrity and
  security of Social Security Administration (SSA) programs and
operations and protect them against fraud, waste and abuse. We
  provide timely, useful and reliable information and advice to
        Administration officials, Congress and the public.




                 VISION and VALUES


     We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking new ways to
    prevent and deter fraud, waste and abuse. We commit to
   integrity and excellence by supporting an environment that
 provides a valuable public service while encouraging employee
development and retention and fostering diversity and innovation.
                            EXECUTIVE SUMMARY




The Inspector General (IG) Act of 1978, as amended, established independent and
objective units in Federal agencies, to promote greater accountability in Government.
This year marks the thirtieth anniversary of the IG Act. This 2008 Performance Report
(i.e. Report) highlights the Office of the Inspector General’s (OIG) results for the third
year of our Fiscal Year (FY) 2006-2010 Revised Strategic Plan. We operate within a
framework set by 3 general goals: the Impact our investigations, audits, and legal
activities have on SSA’s integrity, effectiveness and efficiency; the Value we bring to
Congress, Social Security and the citizens we serve, while sustaining a positive return for
each tax dollar invested in OIG activities; and the People of the OIG, who continue to be
the driving force behind this organization’s success in meeting its mission. These general
goals are further divided into 14 separate performance measures. For FY 2008, we
increased the target goals for 4 performance measures and we successfully met the targets
for 12 of the performance measures.

Our accomplishments from this past year reflect a level of commitment and dedication to
our core mission of inspiring public confidence by detecting and preventing fraud, waste
and abuse in SSA’s programs and operations. We will continue to work with our partners
in SSA, the Congress, and other Federal agencies to ensure the integrity and reliability of
the Social Security programs upon which so many Americans depend for their economic
security.




October 2008              SSA OIG FY 2008 Performance Report                        Page 1
                                    PERFORMANCE RESULTS


                                                                                            GOALS
GOAL                     DESCRIPTION                              TARGET RESULT          MET    NOT
                                                                                                MET
                                                   IMPACT
       Maintain an annual acceptance rate of at least
 1.1                                                               85%         96%         X
       85 percent for all recommendations.
       Through FY 2010, achieve a 5-year average
       implementation rate of 85 percent for accepted
 1.2                                                               85%         89%         X
       recommendations aimed at improving the integrity,
       efficiency and effectiveness of SSA.
       Achieve a positive action on at least 85 percent of all
 1.3                                                               85%         93%         X
       cases closed during the FY.
                                                    VALUE
       Generate a positive return of $6 for every tax dollar
 2.1                                                              $6 to $1   $42 to $1     X
       invested in OIG activities.
       Evaluate and respond to 90 percent of all allegations
 2.2                                                               90%         95%         X
       received within 30 days.
       Complete investigative fieldwork on 75 percent of all
 2.3                                                               75%         94%         X
       cases within 180 days.
       Respond to 90 percent of congressional requests within
 2.4                                                               90%         98%         X
       21 days.
       Take action on 90 percent of Civil Monetary Penalty
 2.5                                                               90%         94%         X
       (CMP) subjects within 30 days of receipt.
       Achieve a positive internal and external user
 2.6   assessment rating of 85 percent for                         85%         89%         X
       product-service quality.
       Issue 78 percent of final audit reports within 1 year of
 2.7                                                               78%         83%         X
       the entrance conference with SSA.
       Complete 85 percent of requests for legal advice and
 2.8                                                               85%         99%         X
       review within 30 days.
                                                   PEOPLE
 3.1   Achieve an annual attrition rate of 5 percent or less.       5%         6%                 X
       Conduct an annual employee job-satisfaction survey
 3.2   and implement corrective action plans to identify areas     81%         79%                X
       where improvement is needed.
       Ensure that 90 percent of OIG staff receives 40 or
 3.3   more hours of appropriate developmental and                 90%         96%         X
       skill-enhancement training annually.




         October 2008                SSA OIG FY 2008 Performance Report                  Page 2
                        PERFORMANCE DISCUSSION
                             AND ANALYSIS


This section provides detailed performance information, including a description of our
Strategic Plan goals aimed at achieving success in each of the 3 general areas. We state
each goal, its associated results and describe the method of calculation. We also discuss,
where appropriate, why we believe we were successful or unsuccessful in meeting our
goals.


  Goal 1 - IMPACT
                Enhance the integrity, efficiency and effectiveness of SSA
                               programs and operations.

Strategies to attain this goal include:

    1. Promote an OIG-wide process for cross-component communications on potential
       programmatic and operational vulnerabilities.

    2. Communicate with the Agency to identify mission-critical issues and operations
       that would benefit from OIG audit and investigation services and develop
       practical solutions to address identified weaknesses or deficiencies.

    3. Prioritize investigations, audits and counsel actions to effect more efficient and
       effective SSA programs and operations.


               Maintain an annual acceptance rate of at least           FY 2008 Result
 Goal 1.1
               85 percent for all recommendations.                        96 Percent

This measure is calculated by dividing the number of legislative, policy and regulatory
recommendations accepted by SSA and/or Congress (included in proposed legislation)
during the FY by the total number of recommendations with a management decision and
legislative proposals made during the FY.

For FY 2008, our annual acceptance rate was 96 percent, exceeding our 85 percent goal. Of
the 278 recommendations we submitted during this period that have a management
decision, SSA agreed with 267.




October 2008                 SSA OIG FY 2008 Performance Report                   Page 3
               Through FY 2010, achieve a 5-year average
               implementation rate of 85 percent for accepted          FY 2008 Result
 Goal 1.2
               recommendations aimed at improving the                    89 Percent
               integrity, efficiency and effectiveness of SSA.

This measure is calculated by dividing the total number of accepted recommendations
implemented by SSA during the past 5 FYs by the total number of recommendations SSA
agreed to implement during the past 5 FYs.

Since SSA needs sufficient time to implement the recommendations it has agreed to, there is
a 1-year lag in this calculation. Thus, for FY 2008 we are reporting the 5-year period
covering FYs 2003 through 2007. Our average implementation rate for accepted audit
recommendations was 89 percent, exceeding our 85 percent goal. During this period, SSA
implemented 1,457 of 1,629 accepted recommendations.

               Achieve a positive action on at least 80              FY 2008 Result
 Goal 1.3
               percent of all cases closed during the FY.              93 Percent

This measure is calculated by dividing the total closed cases that resulted in a positive
action during the FY by the total cases closed during the FY. If the subject has been
sentenced, the case referred for a CMP and/or an administrative action has been taken
against the subject, it is considered a positive action on the closed case. In addition, if
certain money types have been collected or certain referrals have been made it is considered
a positive action.

For FY 2008, we closed 9,795 out of 10,575 investigations with a positive action. This 93
percent performance rate exceeds our 85 percent target.




October 2008                SSA OIG FY 2008 Performance Report                  Page 4
  Goal 2 - VALUE
  Provide quality products and services of value in a timely manner to Congress, SSA
  and other key decision-makers while sustaining a positive return for each tax dollar
                              invested in OIG activities.

Strategies used to attain this goal include:

   1. Maintain a “positive-return” culture within OIG.

   2. Ensure continual improvement of OIG products by using a product and service
      quality assessment instrument to measure internal and external user satisfaction.

   3. Implement best practices to ensure quality and timeliness of OIG products and
      services.

   4. Utilize information technology investments to enhance OIG work products and
      service delivery.

               Generate a positive return of $4 for every tax         FY 2008 Result
 Goal 2.1
               dollar invested in OIG activities.                       $42 to $1

This measure is calculated by dividing the total amount of all OIG savings identified during
the FY by the total amount of appropriated funds during the same period.

For FY 2008, we generated a return of $42 for every dollar invested in us by the taxpayer.
This rate of return was bolstered by 4 audit reports entitled, The Social Security
Administration’s Income and Resource Verification Process for Individuals Applying for
Help with Medicare Prescription Drug Plan Costs (A-06-06-16135); Underpayments
Payable on Behalf of Terminated Title II Beneficiaries (A-09-07-17160); Supplemental
Security Income Recipients with Excess Income and/or Resources (A-01-08-18022); Dually
Entitled Beneficiaries who are Subject to Government Pension Off set and the Windfall
Elimination Provision (A-09-07-27010) . In these reports, we identified over $1.7 billion in
Questioned Costs.

               Evaluate and respond to 90 percent of all              FY 2008 Result
 Goal 2.2
               allegations received within 30 days.                     95 Percent

This measure is calculated by dividing the total number of allegations closed or referred
within 30 days during the FY by the total number of allegations closed or referred during
the FY.

For FY 2008, we achieved a 95 percent rating. Of the 87,412 allegations closed or referred
during the FY, we closed or referred 83,074 within 30 days.



October 2008                 SSA OIG FY 2008 Performance Report                 Page 5
               Complete investigative fieldwork on 75 percent          FY 2008 Result
 Goal 2.3
               of all cases within 180 days.                             94 Percent

This measure is calculated by dividing the total number of investigations closed or referred
for prosecution, CMP, SSA or other State or Federal agency action within 180 days during
the FY by the total investigations closed or referred during the FY.

For FY 2008, we surpassed our 75 percent goal with a 94 percent rating. A total of 10,575
investigations were closed or referred during the FY. Of these, we closed or referred 9,892
cases for action within 180 days.

               Respond to 90 percent of congressional                  FY 2008 Result
 Goal 2.4
               requests within 21 days.                                  98 Percent

This measure is calculated by dividing the total congressional requests responded to within
21 days during the FY by the total number of congressional requests responded to during
the FY. Processing days are the days elapsed from receipt of a congressional request to the
date of a response.

For FY 2008, we achieved a 98 percent rating. Our office responded to 59 Congressional
inquiries during the FY. We responded to 58 of them within 21 days.

               Take action on 90 percent of Civil Monetary
                                                                       FY 2008 Result
 Goal 2.5      Penalty (CMP) subjects within 30 days of
                                                                         94 Percent
               receipt.

This measure is calculated by dividing the total number of CMP subjects against whom
action was taken within 30 days of receipt during the FY by the total number of CMP
subjects where action was taken during the FY. Actions include sending initial letters,
requesting investigative assistance or closing the CMP.

For FY 2008, we took action on 1,316 CMP subjects. Action was taken on 1,242 of those
subjects within 30 days of their receipt.

               Achieve a positive internal and external user
                                                                       FY 2008 Result
 Goal 2.6      assessment rating of 85 percent for
                                                                         89 Percent
               product-service quality.

This measure is calculated by using a five-tier rating scale measuring the degree of
satisfaction with OIG products and services by recipients and users, including SSA and
other government entities, such as Congress, Offices of U.S. Attorney, and external law
enforcement agencies. The numeric response is translated into a percentage with 85 percent
indicating satisfaction.



October 2008                SSA OIG FY 2008 Performance Report                   Page 6
For FY 2008, we achieved an 89 percent rating, exceeding the 85 percent goal.

               Issue 78 percent of final audit reports within 1        FY 2008 Result
 Goal 2.7
               year of the entrance conference with SSA.                 83 Percent

This measure is calculated by dividing the total number of audit reports issued during the
FY within 1 year of the entrance conference by the total number of audit reports issued
during the FY.

For FY 2008, our office achieved a 83 percent rating, exceeding our goal of 78 percent. We
issued a total of 108 audit reports during the fiscal year. We issued 90 of these reports
within 1 year of their respective entrance conference.

               Complete 85 percent of requests for legal               FY 2008 Result
 Goal 2.8
               advice and review within 30 days.                         99 Percent

This measure is calculated by dividing the total number of legal opinions, subpoenas and
audit reviews completed by the Office of the Chief Counsel to the Inspector General within
30 days of receipt during the FY by the total number of requests for legal opinions,
subpoenas and audit reviews completed during the FY.

During FY 2008, we completed 372 of the 375 requests for legal opinions, subpoenas, and
audit reviews within 30 days of their receipt.




October 2008                SSA OIG FY 2008 Performance Report                   Page 7
    Goal 3 - PEOPLE
   Promote a skilled, motivated, diverse workforce in a positive and rewarding work
                                     environment.

Strategies used to attain this goal include:

   1. Identify assignment interests and developmental needs of all employees.

   2. Provide OIG components with training and tools necessary to ensure professional
      development and skills enhancement.

   3. Maintain a proactive approach in recruiting and hiring candidates to meet
      different needs.

             Achieve an annual attrition rate of 5 percent or          FY 2008 Result
 Goal 3.1
             less.                                                       6 Percent

This measure is calculated by dividing the total number of employees separated (excluding
retirements and deaths) during the FY by the OIG Average Workforce for the FY.

For FY 2008, there were 36 separations from the OIG’s 580 Average Workforce. This
resulted in a 6 percent attrition rate.

             Conduct an annual employee job-satisfaction
                                                                       FY 2008 Result
 Goal 3.2    survey and implement corrective action plans to
                                                                         79 Percent
             identify areas where improvement is needed.

OIG’s Organizational Health Committee implemented an annual employee job-satisfaction
survey beginning in FY 2006. The SSA published the results of a similar survey in
September 2008, and defined a statistical strength as an item where at least 65 percent of
employees responded positively (e.g., strongly agree or agree). Using the SSA definition of
statistical strength, 12 of the 13 questions on the OIG survey had scores above 65 percent
and showed that the health of the OIG organization is strong.

Question 12 of this survey is the same question used on SSA’s survey and asks,
“Considering everything, how satisfied are you with your job?” In the OIG survey 79
percent of employees who responded to the survey indicated that they are either satisfied or
very satisfied with their jobs. This result represents a slight decrease from our 81 percent
satisfaction rate in the baseline year of FY 2006, but is higher than the 72 percent rate
reported for SSA employees.




October 2008                 SSA OIG FY 2008 Performance Report                 Page 8
             Ensure that 90 percent of OIG staff receives 40
                                                                      FY 2008 Result
Goal 3.3     or more hours of appropriate developmental
                                                                        96 Percent
             and skill-enhancement training annually.

This measure is calculated by dividing the total number of OIG staff on board for the entire
FY receiving at least 40 hours of training during the FY by the total number of OIG staff on
board for the entire FY.

For FY 2008, 96 percent of our employees received 40 or more hours of appropriate
developmental and/or skill-enhancement training. Achieving this goal demonstrates OIG’s
commitment to having an adept and proficient workforce. The continual development of
our employees underlies our successful performance as an organization.




October 2008               SSA OIG FY 2008 Performance Report                   Page 9
                           HISTORICAL COMPARISON


                                                                    FY 2006     FY 2007
GOAL                      DESCRIPTION
                                                                   RESULTS     RESULTS
        Maintain an annual acceptance rate of at least
 1.1                                                                 93%         97%
        85 percent for all recommendations.
        Through FY 2010, achieve a 5-year average
        implementation rate of 85 percent for accepted
 1.2                                                                 92%         90%
        recommendations aimed at improving the integrity,
        efficiency and effectiveness of SSA.
        Achieve a positive action on at least 80 percent of all
 1.3                                                                 87%         93%
        cases closed during the FY.
        Generate a positive return of $4 for every tax dollar
 2.1                                                               $46 to $1   $51 to $1
        invested in OIG activities.
        Evaluate and respond to 90 percent of all allegations
 2.2                                                                 96%         95%
        received within 30 days.
        Complete investigative fieldwork on 75 percent of all
 2.3                                                                 84%         92%
        cases within 180 days.
        Respond to 90 percent of congressional requests within
 2.4                                                                 97%         99%
        21 days.
        Take action on 90 percent of Civil Monetary Penalty
 2.5                                                                 92%         95%
        (CMP) subjects within 30 days of receipt.
        Achieve a positive internal and external user
 2.6    assessment rating of 85 percent for                          88%         88%
        product-service quality.
        Issue 75 percent of final audit reports within 1 year of
 2.7                                                                 85%         93%
        the entrance conference with SSA.
        Complete 80 percent of requests for legal advice and
 2.8                                                                 95%         98%
        review within 30 days.
 3.1    Achieve an annual attrition rate of 5 percent or less.       2%          4%
        Conduct an annual employee job-satisfaction survey
 3.2    and implement corrective action plans to identify areas      81%         83%
        where improvement is needed.
        Ensure that 90 percent of OIG staff receives 40 or
 3.3    more hours of appropriate developmental and                  93%         96%
        skill-enhancement training annually.




October 2008               SSA OIG FY 2008 Performance Report                  Page 10
